Semiannual Report to Congress
April 1, 2009 – September 30, 2009



                               November 2009




    Federal Election Commission - Ofﬁce of Inspector General
           999 E Street, N.W. Suite 940, Washington, D.C. 20463
April 1, 2009 - September 30, 2009




                                     i
                                                                   Oﬃce of Inspector General Semiannual Report to Congress




                                    MANAGEMENT REPORT ON
                               INSPECTOR GENERAL ISSUED REPORTS
                                     WITH QUESTIONED COSTS
                       FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2009



                                                       Number of    Questioned     Unsupported
                                                        Reports       Costs           Costs

     A. Reports for which no management decision
        has been made by commencement of the
        reporting period                                   0             0               [0]


     B. Reports issued during the reporting period         0             0               [0]


        Subtotals (A + B)                                  0             0               [0]


     C. Reports for which a management decision
        was made during the reporting period               0             0               [0]


        (i) Dollar value of disallowed costs               0             0               [0]


        (ii) Dollar value of costs not disallowed          0             0               [0]


     D. Reports for which no management decision has
        been made by the end of the reporting period       0             0               [0]


     E. Reports for which no management decision
        was made within six months of issuance             0             0              [0]




ii
April 1, 2009 - September 30, 2009




                                                   MANAGEMENT REPORT ON
                                           INSPECTOR GENERAL ISSUED REPORTS WITH
                                        RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
                                      FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2009



                                                                          Number of        Funds to be Put
                                                                           Reports         To Better Use

                    A. Reports for which no management decision
                       has been made by the commencement
                       of the reporting period                                0                  0


                    B. Reports issued during the reporting period              0                 0


                    C. Reports for which a management decision
                       was made during the reporting period                    0                 0


                       (i) Dollar value of recommendations that were
                           agreed to by management                             0                 0

                         - Based on proposed management action                 0                 0

                         - Based on proposed legislative action                0                 0


                       (ii) Dollar value of recommendations that were
                            not agreed to by management                        0                 0


                    D. Reports for which no management decision
                       has been made by the end of the reporting period        0                 0


                    E. Reports for which no management decision
                       was made within six months of issuance                  0                 0




                                                                                                             iii
                           Oﬃce of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank





iv
April 1, 2009 - September 30, 2009




                                     FEDERAL ELECTION COMMISSION
                                     WASHINGTON, D.C. 20463
                                     OFFICE OF THE INSPECTOR GENERAL




                                                  A Message from the Inspector General


                       One of the focuses of the Office of Inspector General (OIG) this past six months
                       has been to increase our presence at the Federal Election Commission (FEC). The
                       main way we did this was to launch an Intranet website, with the assistance of the
                       FEC’s Information Technology Division. The FEC’s Intranet (FECNet) serves as
                       the interactive information resource for FEC employees and is only accessible by
                       connecting to the internal FEC network.

                       The development of the OIG FECNet page allows the OIG a vehicle to make the
                       tools and information that we provide for the use and knowledge of FEC staff
                       readily available. Some of the documents/information provided on the webpage
                       include an electronic staff complaint form that FEC staff can use to report alleged
                       fraud, waste or abuse within the agency; guidance for FEC staff regarding all the
                       possible methods that can be used by FEC staff to report suspected fraud, waste or
                       abuse; the OIG brochure; and the latest reports issued by the OIG. We also plan to
                       use this site to post our completed work and provide communication to the FEC
                       staff. I would like to especially thank Mia Forgy, OIG auditor, for the work she did
                       on this project.

                       The OIG also conducted our annual brainstorming session during this reporting
                       period. Prior to our meeting date, the Deputy Inspector General sends out an email
                       to all FEC staff soliciting their input. We then take all received suggestions and have
                       an all day staff session where we discuss areas that we want to focus our resources.
                       After that meeting the Deputy IG and I meet to complete the work plan for the
                       upcoming and future years. The OIG annual work plan for Fiscal Year 2010 can be
                       found on page 21 of this report.




                       Lynne A. McFarland
                       Inspector General
                       Federal Election Commission



                       September 30, 2009




                                                                                                                 v
                           Oﬃce of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank





vi
April 1, 2009 - September 30, 2009




                                                                Table of Contents




     Executive Summary                                                                                1

     The Federal Election Commission                                                                  3

     Office of Inspector General                                                                      4

     OIG Audit Activity                                                                               5

              2008 Audit of Procurement and Contract Management                                      5

              Audit of the Federal Election Commission’s Fiscal Year 2009 Financial Statements        6

              Audit of the Commission’s Property Management Controls                                  7

     OIG Audit Follow-up Activity                                                                     8

              Audit Follow-up of the FEC’s Employee Transit Benefit Program                           8

     OIG Hotline Information                                                                          9

     OIG Investigations                                                                             10

     Additional OIG Activity                                                                        11

     OIG Special Project                                                                            12

     Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity                 13

     OIG Contacts                                                                                   14

     List of Training, Meetings and Conferences                                                     15

     Reporting Requirements 
                                                                       17

     Table I – Inspector General Issued Reports With 
                                              18
                 Questioned Cost

     Table II – Inspector General Issued Reports With
                                              19
                 Recommendations That Funds Be Put To Better Use

                                                                                                 (cont.)



                                                                                                           vii
                     Oﬃce of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank

April 1, 2009 - September 30, 2009




     Table III – Summary Of Audit Reports With                                        20

                 Corrective Actions Outstanding For More Than Six Months

     OIG Fiscal Year 2010 Work Plan                                                    21

              Message from the Inspector General                                       23

              The Federal Election Commission                                          24

              Office of Inspector General                                              24

              OIG Strategic Planning                                                   25

              Annual Planning and Methodology Strategies                               26

              OIG 2010 Work Plan                                                       27

              Audits/Inspections/Reviews                                               27

              Investigative Program                                                    30

              Special Projects                                                         31

     OIG Strategic Plan - Fiscal Year 2005 – 2010                                      33

     Contacting the Office of Inspector General                        (inside back cover)

                     Oﬃce of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank

April 1, 2009 - September 30, 2009




                                                               Executive Summary




The Inspector General Act of 1978, as amend­               of the audit and has already begun addressing the
ed, states that the Inspector General is respon­           findings and recommendations by finalizing policies
sible for conducting audits, inspections, investiga­       and procedures and providing training for agency
tions, and recommending policies and procedures            employees responsible for contract management
that promote economic, efficient, and effective use        oversight.
of agency resources and programs that prevent
fraud, waste, abuse and mismanagement. The IG              The Audit of the FEC’s Fiscal Year 2009 Financial
Act also requires the Inspector General to keep            Statements – OIG-09-01 commenced during this
the Commission and Congress fully and currently            reporting period. Under a contract monitored by the
informed about problems and deficiencies in the            OIG, certified public accountants, Leon Snead &
Commission’s operations and the need for corrective        Company (LS&C) was selected to perform the audit
action.                                                    of the FEC’s FY 2009 financial statements. The OIG
                                                           is responsible for 1) reviewing the auditor’s approach
This semiannual report includes the major accom­           and planning of the audit; 2) evaluating the qualifi­
plishments of the Office of Inspector General, as well     cations and independence of the auditors; 3) moni­
as relevant information regarding additional OIG ac­       toring the work of the auditors; 4) examining audit
tivities. The executive summary highlights the most        documents and reports to ensure compliance with
significant activities of the OIG. Additional details      Government Auditing Standards, and OMB Bulletin
pertaining to each activity can be found in subse­         No. 07-04, Audit Requirements for Federal Financial
quent sections of this report.                             Statements, as amended; and 5) other procedures
                                                           the OIG deems necessary to oversee the contract
The 2008 Audit of Procurement and Contract                 and audit.
Management – OIG-08-02 was completed and re­
leased September 2009. The OIG determined that             The entrance conference has been conducted, the
an audit of the FEC’s contract and procurement             audit scope and ways to ensure an efficient and ef­
management process was necessary due to our                fective audit process for fiscal year 2009 was dis­
failed attempts to validate the deliverables of two for­   cussed. A timeline was established, along with re­
mer FEC contractors. The OIG hired the auditing firm       quests to management for necessary documentation
of Regis & Associates PC to conduct the audit.             and information concerning the financial statements.
                                                           The planning and interim audit testing phases were
There were eight (8) objectives associated with the        completed by LSC during the semiannual period.
audit. The audit identified nine (9) significant issues    The OIG reviewed LSC’s audit planning methodol­
that prevent the Procurement Office from achiev­           ogy and interim audit testing results, and provided
ing compliant and effective functions. The results of      comments to LSC. In addition, LSC prepared sev­
audit testing showed that, overall, the agency may         eral notice of findings and recommendations which
not have received goods and services within the            were reviewed by the OIG and then issued to FEC
contract terms, and that the Procurement Office did        management for response. The OIG has coordinated
not adequately document and assess its acquisition         and attended regular biweekly audit status meetings
processes, procedures, and management controls.            with LSC and FEC management during the audit;
Management generally concurred with the results



                                                                                                                 1
                                                               Oﬃce of Inspector General Semiannual Report to Congress




more frequent meetings will be held in the month of      As we come to the conclusion of this reporting peri­
October as the audit nears completion.                   od, there are 10 hotline complaints open and in vari­
                                                         ous stages (pending, in progress); 11 hotline com­
The Audit of the Commission’s Property                   plaints were closed this quarter; and 5 investigations
Management Controls – OIG-09-02 also com­                are currently in progress. For more information per­
menced during this reporting period. The audit is        taining to the hotline issues, see the section entitled
being conducted based upon an OIG developed              OIG Hotline Information (located on page 9); for
strategic audit plan for the agency, and previously      more information on investigations, see the section
reported misuse of FEC property. The scope of the        entitled OIG Investigations (located on page 10).
audit includes a review of Commission internal con­
trols over FEC property from FY 2007 to present.
This includes blackberry/cellular telephones; FEC
vehicles; and fleet/fuel charge card transactions.

The OIG held an entrance conference on
September 11, 2009 to provide management with
an understanding of the purpose, scope, and au­
dit plan for the audit of the Commission’s Property
Management Controls.

An Audit Follow-up Review of the FEC’s
Employee Transit Benefit Program – OIG-08-03
was completed and released July 2009. The pur­
pose of the audit follow-up was to verify whether
management had adequately implemented the
OIG’s recommendations, as agreed, prior to closing
the outstanding 22 recommendations from the 2007
audit. As a result of the audit follow-up review, the
OIG closed only one of the 22 outstanding recom­
mendations and indentified 16 findings and made 51
additional recommendations for improvement to the
management of the program. The OIG’s audit follow-
up report also included five suggestions for addition­
al program improvement.

The OIG believes that the lack of progress is based
on two key points: the absence of a single individual
responsible and accountable for the overall program
administration of the transit benefit program; and the
failure to fully apply FEC Directive 50, Audit Follow-
up, in monitoring and reporting progress of recom­
mendation implementation to the Commission and
the OIG.

For detailed information regarding the above audits
and audit follow up activity, see the section entitled
OIG Audit Activity (starting on page 5); and OIG
Audit Follow-up Activity (starting on page 8).




2
April 1, 2009 - September 30, 2009




                             the federal election commission




                                         In 1975, Congress created the Federal Election
                                         Commission (FEC) to administer and enforce the
                                         Federal Election Campaign Act (FECA). The duties
                                         of the FEC, an independent regulatory agency, are to
                                         disclose campaign finance information; enforce the
                                         provisions of the law; and oversee the public funding
                                         of Presidential elections.

                                         The Commission consists of six members who are
                                         appointed by the President and confirmed by the
                                         Senate. Each member serves a six-year term, and
                                         two seats are subject to appointment every two
                                         years. By law, no more than three Commissioners
                                         can be members of the same political party,
                                         and at least four votes are required for any offi­
                                         cial Commission action. The Chairmanship of the
                                         Commission rotates among the members each
                                         year, with no member serving as Chairman more
                                         than once during his or her term. Currently the FEC
                                         has a full complement of Commissioners – Steven
                                         T. Walther, Chairman; Matthew S. Petersen, Vice
                                         Chairman; and Commissioners Cynthia L. Bauerly;
                                         Caroline C. Hunter; Donald F. McGahn II; and Ellen
                                         L. Weintraub.




                                                                                               3
                Oﬃce of Inspector General Semiannual Report to Congress




    Office of Inspector General




           The Inspector General Act of 1978 (P.L. 100-504),
           as amended, states that the Inspector General
           is responsible for: 1) conducting and supervis­
           ing audits and investigations relating to the Federal
           Election Commission’s programs and operations; 2)
           detecting and preventing fraud, waste, and abuse
           of agency programs and operations while providing
           leadership and coordination; 3) recommending poli­
           cies designed to promote economy, efficiency, and
           effectiveness of the establishment; and 4) keeping
           the Commission and Congress fully and currently
           informed about problems and deficiencies in FEC
           agency programs and operations, and the need for
           corrective action.




4
April 1, 2009 - September 30, 2009




                                                              OIG Audit Activity




2008 Audit of Procurement and Contract                   The audit included a review of 90 different procure­
Management                                               ments totaling approximately $27.6 million. The
                                                         sample included various types of procurement in­
Assignment Number: OIG – 08-02                           struments (e.g. contracts, purchase orders, blanket
                                                         purchase agreements, and one specified interagency
Status: Released September, 2009                         agreement) awarded/executed by the Procurement
                                                         Office in fiscal years 2006 through 2008. The audit
http://www.fec.gov/fecig/procurement.pdf                 testing was designed to assess procurement op­
                                                         erations both before and after the current Director
Based on discussions with management and efforts         of Procurement was hired by the agency in March
by the OIG to validate the deliverables of two former    2008.
contractors; the OIG decided to conduct an audit of
the procurement and contract management func­            The results of audit testing showed that, overall, the
tions of the agency. The OIG contracted with Regis       agency may not have received goods and services
& Associates, PC (Regis) to conduct a performance        within the contract terms, and that the Procurement
audit of the procurement and contract management         Office did not adequately document and assess its
policies and procedures used by the FEC and to de­       acquisition processes, procedures, and management
termine whether the FEC is complying with the poli­      controls. The audit identified nine significant issues
cies and procedures, and applicable federal acquisi­     that prevent the Procurement Office from achieving
tion laws and regulations.                               compliant and effective functions. Specifically, im­
                                                         provement is needed in the following areas:
The objectives of the audit were to determine wheth­
er the Procurement Office had met the following: 1)        •	 acquisition planning and pre-award

procured supplies and services in an efficient and            administration;

effective manner, and in compliance with applicable
                                                           •	 process for approving procurement awards;
laws, regulations, policies, and procedures; 2) de­
veloped internal bulletins, directives, policies and       •	 oversight and monitoring of procurement 

procedures that comply with applicable laws and               activities;

regulations and whether they and are used to direct
                                                           •	 contracting data reported in the Federal 

procurement activities throughout the Commission;
                                                              Procurement Data System;

3) reported accurately its procurement statistics to
the General Services Administration; 4) received           •	 payments on time-and-materials, and labor-

the goods and services in accordance with contract            hour contracts;

terms; 5) used procurement information to manage
                                                           •	 contract close-out compliance with the Federal
procurement operations effectively and efficiently; 6)
                                                              Acquisition Regulation (FAR);
closed contracts in a timely manner; 7) established
effective internal controls with regard to procure­        •	 compliance with the Clinger-Cohen Act on infor­
ment and contract monitoring; and 8) documented               mation technology investments; and
and assessed its acquisition processes, procedures,
and management controls in accordance with the             •	 blanket purchase agreement usage; and con­
Federal Manager’s Financial Integrity Act.                    tract file recordkeeping.



                                                                                                             5
                                                           Oﬃce of Inspector General Semiannual Report to Congress




Management generally concurred with the results       Audit of the Federal Election Commission’s
of the audit and has already begun addressing the     Fiscal Year 2009 Financial Statements
findings and recommendations by finalizing policies
and procedures and providing training for agency      Assignment Number: OIG – 09-01
employees responsible for contract management
oversight.                                            Status: In Progress

                                                      The Chief Financial Officers Act of 1990 (Public Law
                                                      101-576, commonly referred to as the “CFO Act”),
                                                      as amended, requires the FEC Office of Inspector
                                                      General or an independent external auditor, as
                                                      determined by the Inspector General, to audit the
                                                      agency financial statements. Under a contract mon­
                                                      itored by the OIG, Leon Snead & Company (LSC),
                                                      an independent certified public accounting and man­
                                                      agement consulting firm was awarded a five year
                                                      contract to audit the FEC’s financial statements and
                                                      is performing the 2009 audit.

                                                       LSC has been contracted to conduct the finan­
                                                      cial statement audit following Generally Accepted
                                                      Government Auditing Standards (GAGAS) and OMB
                                                      Bulletin No. 07-04, Audit Requirements for Federal
                                                      Financial Statements, as revised. The firm will issue
                                                      an opinion regarding whether the FEC’s financial re­
                                                      ports and supplemental information (if any) are fairly
                                                      presented in all material respects in accordance with
                                                      Generally Accepted Accounting Principles. In addi­
                                                      tion, the firm will provide reports on internal controls
                                                      and compliance with laws and regulations for mat­
                                                      ters relevant to the financial statement audit. LSC
                                                      may also prepare a management letter document­
                                                      ing any deficiencies in internal controls that are not
                                                      required to be included in the public audit report, but
                                                      that the audit firm considers necessary to communi­
                                                      cate to the Commission and management.

                                                      The OIG is responsible for oversight of the finan­
                                                      cial statement audit. This includes: 1) reviewing
                                                      the auditors’ approach and planning of the audit; 2)
                                                      evaluating the qualifications and independence of
                                                      the auditors; 3) monitoring the work of the auditors;
                                                      4) examining audit documents and reports to ensure
                                                      compliance with GAGAS, and OMB Bulletin No. 07­
                                                      04; and 5) other procedures the OIG deems neces­
                                                      sary to oversee the contract and audit.

                                                      The OIG coordinated and attended the audit en­
                                                      trance conference with LSC and management to



6
April 1, 2009 - September 30, 2009




discuss the audit objectives and schedule. In ad­       Audit of the Commission’s Property
dition, the OIG developed a tracking Excel spread­      Management Controls
sheet to account for the numerous logistical, ad­
ministrative and contract requirements for the audit    Assignment Number: OIG – 09-02
contractors. The OIG also coordinated and attended
meetings in late August with LSC and the FEC’s          Status: In Progress
Chairman and Vice Chairman to discuss the audit
objectives and progress of the audit.                   The audit of the Commission’s Property
                                                        Management Controls commenced during this re­
The planning and interim audit testing phases were      porting period. The audit is being conducted based
completed by LSC during the semiannual period.          upon an OIG developed strategic audit plan for the
The OIG reviewed LSC’s audit planning methodol­         agency; and previously reported misuse of FEC
ogy and interim audit testing results, and provided     property.
comments to LSC. In addition, LSC prepared sev­
eral notice of findings and recommendations which       The scope of the audit includes a review of
were reviewed by the OIG and then issued to FEC         Commission internal controls over FEC property
management for response. The OIG has coordinat­         from FY 2007 to present. This includes blackberry/
ed and attended regular biweekly audit status meet­     cellular telephones; FEC vehicles; and fleet/fuel
ings with LSC and FEC management during the au­         charge card transactions. Audit steps will include
dit; more frequent meetings will be held in the month   documentation and review of the adequacy of poli­
of October as the audit nears completion. The audit     cies and procedures for managing assets; business
is scheduled to be completed by November 16,            processes used to manage the assets; and man­
2009.                                                   agement control activities used to detect and correct
                                                        potential fraud, waste, and abuse of the assets. We
                                                        will also conduct detailed testing of asset use to de­
                                                        termine whether employees complied with FEC poli­
                                                        cies and procedures.

                                                        The OIG held an entrance conference on
                                                        September 11, 2009 to provide management with
                                                        an understanding of the purpose, scope, and au­
                                                        dit plan for the audit of the Commission’s Property
                                                        Management Controls. The OIG has began to
                                                        gather electronic data regarding the blackberry/cel­
                                                        lular telephones; retrieve detailed transaction data
                                                        pertaining to FEC leased vehicles; obtain policies
                                                        and procedures from management; and develop de­
                                                        tailed test steps.

                                                        We are confident this audit will prove to be valuable
                                                        to the Commission as the OIG ensures that the con­
                                                        trols over FEC property are in place, those controls
                                                        are effective, and that the property is not misused.




                                                                                                            7
                                                              Oﬃce of Inspector General Semiannual Report to Congress




                                   OIG Audit Follow-up Activity




Audit Follow-up of the FEC’s Employee                    identified in the prior audit report. The OIG believes
Transit Benefit Program                                  that the lack of progress is based on two key points:
                                                         the absence of a single individual responsible and
Assignment Number: OIG – 08-03                           accountable for the overall program administration
                                                         of the transit benefit program; and the failure to fully
Status: Released July, 2009                              apply FEC Directive 50, Audit Follow-up, in moni­
                                                         toring and reporting progress of recommendation
http://www.fec.gov/fecig/transit09.pdf                   implementation to the Commission and the OIG.

The Federal Election Commission (FEC) Office of          Management generally concurred with the audit
Inspector General (OIG) initiated a follow-up re­        recommendations and prepared a Corrective Action
view of the OIG’s 2007 audit of the FEC’s Employee       Plan (CAP) documenting the activities needed to ful­
Transit Benefit Program. The purpose of the audit        ly implement the audit recommendations. The OIG
follow-up was to verify whether management had           provided comments on the CAP and looks forward
adequately implemented the OIG’s recommenda­             to working with management to ensure the Transit
tions, as agreed, prior to closing the outstanding 22    Benefit program weaknesses are corrected.
recommendations from the 2007 audit.

The OIG issued the final audit report on July 9,
2009. Based on the results of the audit follow-up
review, the OIG continues to note the program’s in­
ternal control system needs strengthening to ensure
that unused subsidies are returned by separating
employees, former employees are promptly removed
from the list of eligible transit subsidy recipients,
employees do not have access to duplicate ben­
efits, and that ineligible persons do not have ac­
cess to FEC transit benefits. As a result of the audit
follow-up review, the OIG closed only one of the 22
outstanding recommendations and indentified 16
findings and made 51 additional recommendations
for improvement to the management of the program.
The OIG’s audit follow-up report also included five
(5) suggestions for additional program improvement,
which are described in the Other Matters of Interest
section of the report.

The OIG included two findings in this report which
highlight the primary reasons for the lack of prog­
ress in implementing the agreed corrective actions
to address transit benefit program weaknesses


8
April 1, 2009 - September 30, 2009




                                            OIG hotline Information:




The Office of Inspector General established a hot-        Under this new policy, hotline evaluation decisions
line to enable employees and others to have direct        are made by the Chief Investigator, with concur­
and confidential contact with the OIG. The OIG re­        rence from the Deputy IG.
ceives complaints through various means such as
                                                          As this reporting period concludes, the OIG has
U.S. mail, telephone, e-mail, and personal visits to
the OIG. Once a hotline (HL) complaint has been re­       ten (10) open hotline complaints in various stages
ceived, a preliminary inquiry is conducted. When the      (pending or in progress); eleven (11) hotline com­
inquiry has been completed, the hotline complaint         plaints were closed this quarter.
can be closed with no further action taken, referred
to management for action, or closed and an investi­
gation opened on the issue.

On July 8, 2009, the Office of Inspector General
(OIG) established a revised policy for reviewing and
evaluating hotline complaints. This policy was de­
veloped to guide the OIG’s effort to ensure consis­
tency and fairness in its case initiation decisions.
The policy will also serve as a guide for the OIG to
manage the increased case load in the OIG’s hotline
complaints, which has occurred over the past couple
of years. The guidelines in this policy compiled some
of the best practices of other OIG offices. The policy
defines “hotline complaints” as allegations or refer­
rals of fraud, waste, abuse, mismanagement, and
misconduct, involving FEC employees/contractors,
programs, operations, property, or funds.

The OIG considers many factors when evaluating
whether to open an investigation based on a hot-
line complaint, and acknowledges that every alle­
gation or complaint received by the OIG cannot be
investigated. The policy includes evaluation con­
siderations, such as the merits of an allegation, the
availability of evidence; and the existing priorities,
commitments, and resources of the OIG. Under this
new policy, hotline complaints shall be classified as
either high or low priority complaints. High priority
complaints are investigated and low priority com­
plaints are either closed with no action, or referred
to an appropriate official for possible further review.



                                                                                                                9
                                                           Oﬃce of Inspector General Semiannual Report to Congress




                                                          OIG investigations: 




OIG investigations seek out facts related to allega­
tions of wrongdoing. OIG investigations may address
administrative, civil, and criminal violations of laws
and regulations. The subject of an OIG investigation
can be any agency employee, an FEC contractor,
consultant, or a person or entity involved in alleged
wrongdoing affecting FEC programs and operations.
The OIG conducts a detailed examination or in­
quiry into issues brought to our attention by various
sources. The examination of the information provided
could potentially lead to an official investigation. At
the conclusion of an OIG investigation, the OIG pre­
pares a report that sets forth the allegations and an
objective description of the facts developed during
the investigation.

Currently there are five open investigations - four
are administrative investigations; one is a criminal
investigation.




10
April 1, 2009 - September 30, 2009




                                                Additional OIG Activity:




Besides conducting audits, inspections, and investi­        Accountability Report (PAR). Research in­
gations, the OIG performs, and is involved in an ar­        cluded reviewing Executive Order require­
ray of additional projects and activities. As required      ments, interviews with OMB and FEC staff.
by the Inspector General Act of 1978, as amend­             The Management Challenges document was
ed, all legislation compiled by the Commission’s            finalized and distributed to the Commission on
Congressional Affairs office is reviewed by the             September 29, 2009.
Inspector General. The Inspector General also re­
                                                         •	 As established by a Memorandum of
views and provides comments, when appropriate,
                                                            Understanding (MOU) between the National
on legislation provided by the Council of Inspectors
                                                            Labor Relations Board (NLRB), OIG and the
General on Integrity and Efficiency (CIGIE)
                                                            Federal Election Commission, OIG – the FEC
Legislative Committee. In addition, the Inspector
                                                            OIG independently referenced a NLRB draft
General routinely reads all Commission agenda
                                                            inspection report. The purpose of the indepen­
items. Listed below are examples of the OIG’s ad­
                                                            dent referencing was to ensure that statements
ditional activities:
                                                            of facts, figures, and dates are accurately re­
  •	 The OIG received a Congressional inquiry re­           ported; the findings are adequately supported
     questing that our office conduct an investiga­         by the evidence in the audit documentation;
     tion into whether the Association of Community         and the conclusions and recommendations flow
     Organizations for Reform Now (ACORN), and              logically from the evidence.
     its affiliates, failed to comply with FEC regula­   •	 Conducted survey work on the FEC’s records
     tions and the Federal Election Campaign Act            management process, drafted a discussion
     (FECA). Under the IG Act, our office is prohib­        document on the history and current state of
     ited from performing any FEC program func­             FEC records management processes. The OIG
     tions, enforcing the laws and regulations under        briefed the FEC staff director and provided in­
     the FECA is the agency’s responsibility and            formation pertaining to the issues surrounding
     therefore the OIG has no oversight authority           the FEC records management process.
     over ACORN or any groups regulated by the
     FEC and the OIG informed the requestor that         •	 The OIG conducted several new employee ori­
     we could not conduct an investigation                  entations (NEO) during this reporting period.
                                                            The NEO is designed to give new employees
  •	 The OIG conducted research on various le­
                                                            an overall look at the Commission’s core divi­
     gal issues such as the Clinger-Cohen Act; IG
                                                            sions. The OIG introduces the new employee
     Authority; and OPM Policies; responded to or
                                                            to the office and details the responsibilities of
     provided comments to various requests for as­
                                                            the OIG and the employee’s responsibilities as
     sistance/information within the IG community,
                                                            a federal employee.
     as well as the Integrity Committee, and the
     Legislation Committee.
  •	 The OIG conducted research and updated the
     Inspector General Management Challenges
     for inclusion in the 2009 Performance and



                                                                                                           11
                                                                          Oﬃce of Inspector General Semiannual Report to Congress




                                                                       OIG Special Project:




                                                                     The OIG launched an Intranet website in September
                                                                     2009, with the assistance of the FEC’s Information
                                                                     Technology Division. The FEC’s Intranet (FECNet)
                                                                     serves as the interactive information resource for
                                                                     FEC employees and is only accessible by connect­
                                                                     ing to the internal FEC network.

                                                                     The development of the OIG FECNet page allows
                                                                     the OIG a vehicle to make the tools and information
                                                                     that we provide for the use and knowledge of FEC
                                                                     staff readily available. Some of the documents/infor­
                                                                     mation provided on the webpage include an elec­
                                                                     tronic staff complaint form that FEC staff can use to
                                                                     report alleged fraud, waste or abuse within the agen­
                                                                     cy; guidance for FEC staff regarding all the possible
                                                                     methods that can be used by FEC staff to report sus­
                                                                     pected fraud, waste or abuse; the OIG brochure; and
                                                                     the latest reports issued by the OIG.

                                                                     The FECNet page will be an on-going project for the
                                                                     OIG; we will continually update the FECNet page to
                                                                     share with the agency updates and changes that oc­
                                                                     cur within the IG office, and highlight current events
                                                                     that take place in the OIG.
     Pictured: Ms. Mia Forgy, OIG Staff Auditor and Mr. William
     Murphy, Senior IT specialist, Information Technology Division   Mr. William Murphy, Senior IT specialist from the
     (ITD) FECNet Team
                                                                     Information Technology Division (ITD) FECNet Team,
                                                                     was instrumental in assisting the OIG with design­
                                                                     ing the webpage. The OIG extends a special thank
                                                                     you to Mr. Murphy for the outstanding assistance he
                                                                     provided.




12
April 1, 2009 - September 30, 2009




        Council of the Inspectors General on
      Integrity and Efficiency (cigie) Activity:


                                     This has been a very active and productive time for
                                     the CIGIE. Following the election of the first chair
                                     of the CIGIE much needed to be accomplished to
                                     get the new Council organized and functioning. As
                                     a member of the Executive Council of CIGIE, the
                                     Inspector General has participated in numerous
                                     meetings where things such as the Council’s char­
                                     ter, budget, business and staffing plans have been
                                     discussed prior to presentation of these issues to the
                                     complete membership for approval. The Executive
                                     Council meets monthly to discuss issues that will
                                     have an impact on CIGIE and its members. The
                                     Executive Council is also responsible for reviewing
                                     the nominations for key awards that will be present­
                                     ed at the annual awards ceremony.

                                     As part of the Inspector General Reform Act, the
                                     CIGIE was charged with providing recommendations
                                     to the Administration and Agency Heads concerning
                                     qualified candidates for Inspector General positions.
                                     The Inspector General, along with the Department
                                     of Justice Inspector General, serves as co-chair of
                                     the Inspector General Candidate Recommendation
                                     Panel. In this capacity, they have met with represen­
                                     tatives of the White House Office of Personnel and
                                     various representatives from agencies to discuss
                                     candidates for vacant IG positions. They have also
                                     devised a method for receiving resumes and applica­
                                     tions from interested candidates and the panel cre­
                                     ated a questionnaire for all interested applicants to
                                     complete. During this quarter, the panel met several
                                     times and conducted numerous conference calls to
                                     discuss candidates in relation to open IG positions.

                                     The Inspector General also attends the monthly
                                     CIGIE meetings and is Vice Chair of the Professional
                                     Development Committee. The Inspector General at­
                                     tended the 2009 CIGIE Annual Leadership Training
                                     Conference and served as moderator for one of the
                                     panels.



                                                                                        13
                                                                Oﬃce of Inspector General Semiannual Report to Congress




                                                                            OIG Contacts



The table below indicates the total amount of contacts received by the Office of Inspector General for the past
six months – April 1, 2009 through September 30, 2009.

These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and per­
sonal visits to the OIG.




                   Total            OIG         No Action       Forwarded
                  Contacts         Action       Necessary       for Action

                     856
             34
          805
              17





14
April 1, 2009 - September 30, 2009




                                               List of Training, Meetings
                                                         and Conferences

The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period April 1, 2009 – September 30, 2009.



                     Host/Sponsor                                             Topic/Subject
                                                           Monthly Meetings
                                                           Executive Council Meetings
                                                   CIGIE   Professional Development Committee Meetings
                                                           Inspections and Evaluation Conference
                                                           Annual Leadership Training Conference
                                                           Financial Statement Audit Network (FSAN) Meetings
      Council of Counsels to the Inspectors General        Monthly CCIG Meetings

       Assistant Inspector General for Investigations      AIGI Annual Conference
                                                           Quarterly Meetings
                        Federal Audit Executive Council    FAEC Conference

              Federal Dispute Resolution Conference        FDR Conference

             Association of Certiﬁed Fraud Examiners       ACFE Conference

             Association of Government Accountants         AGA Professional Development Conference
                                       Conference
                          Professional Women Network       PWN International Conference

                                     Management Concepts   Contracting Ofﬁcers Technical Representative
                                                           (COTR) Training

             Federal Law Enforcement Training Center       IG Basic Non-Criminal Investigator Training

                                                  DC Bar   Federal Sector Employment Disputes Training



                                                                                                          (cont.)





                                                                                                               15
                                             Oﬃce of Inspector General Semiannual Report to Congress




     Host/Sponsor                                          Topic/Subject
                                      Capitol Hill Workshop: Politics, Policy, and
                        Capitol.Net   Process Training
                                      Upward Mobility For Federal Employees Training
         Human Resources Institute    Introduction to Project Management Training

                                      Cyber Space Advanced Persistent Threat Brieﬁng
                                      Weekly Directors’ Meetings
                                      Agency Town Hall Meeting
                                      OIG Bi-weekly Staff Meetings
        Federal Election Commission   Administrative Liaison Group Meeting
                                      2009 Ethics Training
                                      2009 No Fear Act Training
                                      Computer Security Awareness Training
                                      SkillPort – Communication Skills For Successful
                                      Management Training




16
April 1, 2009 - September 30, 2009




                                                    Reporting Requirements 



      Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
      General Act Amendments of 1988 are listed below:

     IG Act                      Description                                                                Page


     Section 4(a)(2)             Review of Legislation                                                       11

     Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies                             None

     Section 5(a)(2)             Recommendations with Respect to Significant Problems, Abuses,              None
                                 and Deficiencies

     Section 5(a)(3)             Recommendations Included in Previous Reports on Which Corrective            20
                                 Action Has Not Been Completed (Table III)

     Section 5(a)(4)             Matters Referred to Prosecuting Authorities                                None

     Section 5(a)(5)             Summary of Instances Where Information was Refused                         None

     Section 5(a)(7)             Summary of Significant Reports                                               5

     Section 5(a)(8)             Questioned and Unsupported Costs (Table I)                                  18

     Section 5(a)(9)             Recommendations that Funds be put to Better Use (Table II)                  19

     Section 5(a)(10)            Summary of Audit Reports issued before the start of the Reporting Period    N/A
                                 for which no Management Decision has been made

     Section 5(a)(11)            Significant revised Management Decisions                                    N/A

     Section 5(a)(12)            Management Decisions with which the Inspector General is                   None
                                 in Disagreement




                                                                                                                   17
                                                        Oﬃce of Inspector General Semiannual Report to Congress




                                                                                         TABLE I


INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS


(DOLLAR VALUE IN THOUSANDS)




                                                     Number      Questioned            Unsupported
                                                                   Costs                  Costs

A. For which no management decision has been made      0                  0                     0
   by commencement of the reporting period


B. Which were issued during the reporting period       0                  0                     0


     Sub-Totals (A&B)                                  0                  0                     0


C. For which a management decision was made during     0                  0                     0
   the reporting period


     (i) Dollar value of disallowed costs              0                  0                     0


     (ii) Dollar value of costs not disallowed         0                  0                     0


D. For which no management decision has been made      0                  0                     0
   by the end of the reporting period

E. Reports for which no management decision was        0                  0                     0
   made within six months of issuance




18
April 1, 2009 - September 30, 2009




                                                                              TABLE II


INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE




                                                                     Number     Dollar Value
                                                                              (In Thousands)
  A. For which no management decision has been made by the             0            0
     commencement of the reporting period

  B. Which were issued during the reporting period                     0            0

  C. For which a management decision was made during the re­           0            0
     porting period
      (i) dollar value of recommendations were agreed to by            0            0
          management

         based on proposed management action                           0            0

         based on proposed legislative action                          0            0

      (ii) dollar value of recommendations that were not agreed to     0            0
           by management
  D. For which no management decision has been made by the             0            0
     end of the reporting period
  E. Reports for which no management decision was made within          0            0
     six months of issuance




                                                                                          19
                                                Oﬃce of Inspector General Semiannual Report to Congress




                                                                               TABLE III



SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR MORE
THAN SIX MONTHS

                                                          Recommendations
          Report Title             Report      Issue Date     Number          Closed          Open
                                   Number
     Audit of the FEC’s Employee   OIG-06-01     02/07           21              0              21
     Transit Program
     2007 Performance Audit of     OIG-07-02     12/07            7              0              7
     Privacy and Data
     Audit of the FEC’s FY 2008    OIG-08-01     11/08           19              0              19
     Financial Statements




20
April 1, 2009 - September 30, 2009




                  Federal Election Commission
                      Office of Inspector General




                                     Fiscal Year 2010
                                             Work Plan



                                        Lynne A. McFarland
                                         Inspector General



            _________________________________________________________________________________________________
             Semiannual Report to Congress               Page 27                April 1, 2009 – September 30, 2009




                                                                                                                     21
                           Oﬃce of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




22
April 1, 2009 - September 30, 2009




                            FEDERAL ELECTION COMMISSION
                            WASHINGTON, D.C. 20463
                            Office of Inspector General


                                      A Message from the Inspector General


               I am pleased to present to the Commission the Office of Inspector General’s
        (OIG) fiscal year (FY) 2010 Annual Work Plan. This work plan includes a
        description of audit, investigative and special projects planned for the fiscal year.
        This plan also sets forth the OIG’s formal strategy for identifying priority issues
        and managing its workload and resources for FY 2010. Successful execution of this
        plan will enable the OIG to provide the highest quality work products to our
        stakeholders and to assist the FEC in meeting its strategic mission, goals and
        objectives.

               The U.S. Federal Election Commission’s (FEC) mission is to prevent
        corruption in the Federal campaign process by administering, enforcing and
        formulating policy with respect to Federal campaign finance statutes. The OIG is
        committed to ensuring the integrity of FEC programs and operations. The
        development and continual updating of the OIG’s work plan is a critical aspect of
        accomplishing the OIG’s objectives to promote economy and efficiency in FEC
        programs and to detect and prevent fraud, waste and abuse. Effective work
        planning ensures that audit and investigative resources are used effectively and
        efficiently. I look forward to a successful year of providing the highest quality of
        audit and investigative support and service to our stakeholders.

              I am also committed to ensuring effective lines of communication with the
        Commission regarding OIG work activities and issues of concern and importance to
        the Commission. Information on OIG work activity will be reported to the
        Commission in quarterly reports and also in the OIG’s Semiannual Reports to
        Congress.




        Lynne A. McFarland
        Inspector General
        Federal Election Commission

        October 1, 2009




                                                                                                23
                                                  Oﬃce of Inspector General Semiannual Report to Congress




     The Federal Election Commission
           In 1975, Congress created the Federal Election Commission (FEC) to
     administer and enforce the Federal Election Campaign Act (FECA). The duties of
     the FEC, an independent regulatory agency, are to disclose campaign finance
     information; enforce the provisions of the law; and oversee the public funding of
     Presidential elections.

           The Commission is made up of six members, who are appointed by the
     President and confirmed by the Senate. Each member serves a six-year term, and
     two seats are subject to appointment every two years. By law, no more than three
     Commissioners can be members of the same political party, and at least four votes
     are required for any official Commission action. The Chairmanship of the
     Commission rotates among the members each year, with no member serving as
     Chairman more than once during his or her term. Currently the FEC has a full
     complement of Commissioners – Steven T. Walther; Matthew S. Petersen; Cynthia
     L. Bauerly; Caroline C. Hunter; Donald F. McGahn, II; and Ellen L. Weintraub.




     Office of Inspector General
            The Inspector General Act of 1978 (P.L. 100-504), as amended, states that the
     Inspector General is responsible for: 1) conducting and supervising audits and
     investigations relating to the Federal Election Commission’s programs and
     operations; 2) detecting and preventing fraud, waste, and abuse of agency programs
     and operations while providing leadership and coordination; 3) recommending
     policies designed to promote economy, efficiency, and effectiveness of the
     establishment; and 4) keeping the Commission and Congress fully and currently
     informed about problems and deficiencies in FEC agency programs and operations,
     and the need for corrective action. The OIG budget request for fiscal year 2010 is
     $1,116,762 to cover salaries and related expenses for six staff members, to include
     audit contracts and training. Exhibit 1 on the following page contains the OIG’s
     organizational chart.




24
April 1, 2009 - September 30, 2009




        Exhibit 1: FEC - OIG Organizational Chart

          Dorothy Maddox-Holland
                                           Lynne A. McFarland
          Special Assistant to the
                                            Inspector General
            Inpsector General




                                                                                 Joe Duncan
                                               Jon Hatfield
                                                                               Counsel to the IG
                                         Deputy Inspector General
                                                                               Chief Investigator




                                               Irene Porter

                                                Sr. Auditor




                                                Mia Forgy

                                               Staff Auditor




        OIG Strategic Planning
        Strategic Plan
               To enhance the effectiveness of the OIG, and to ensure effective audit and
        investigative coverage of the Commission’s programs and operations, in 2005 the
        OIG updated our strategic plan covering the period 2005 through 2010. Three
        major categories of OIG-wide goals and objectives were identified, which are as
        follows:

            x    OIG Products: To provide products and services that promote positive
                 change in FEC policies, programs, and operations.

            x    OIG Processes: To develop and implement processes, policies, and
                 procedures to ensure the most effective and appropriate use of OIG resources
                 in support of our people and products.

            x    OIG Staff: To maintain a skilled and motivated work force in an
                 environment that fosters accountability, communications, teamwork, and
                 personal and professional growth.




                                                                                                    25
                                                   Oﬃce of Inspector General Semiannual Report to Congress




            In addition, strategies and performance measures for each objective are
     included in the strategic plan. For example, an OIG performance measure for
     audits includes using feedback from stakeholder surveys to continually improve the
     OIG’s audit process. At the conclusion of each audit/inspection/review, the OIG
     distributes a stakeholder survey to the program officials to solicit their feedback on
     the usefulness of the completed audit and their overall satisfaction with the audit
     process.

            The OIG strategic plan will continue to evolve and will be reviewed and
     updated as necessary to ensure maximum effectiveness in meeting the changing
     needs of the FEC, consistent with the OIG’s statutory responsibilities. A detailed
     illustrative version of the OIG’s strategic plan can be found as an attachment of this
     Annual Work Plan.


     Annual Planning and Methodology Strategies

            The planning methodology that we have adopted is built around the OIG staff
     brainstorming sessions held annually each summer, as well as soliciting and
     receiving feedback and ideas from stakeholders throughout the year. The annual
     work plans will, of course, require periodic updates to reflect changes, such as new
     priorities, as well as any changes in OIG resources. In the summer of 2009, the
     OIG conducted our second annual all-day brainstorming session. Similar to 2008,
     the ideas and suggestions generated from the brainstorming session were separated
     into categories to include audits, projects and inspections, and then ranked (i.e.,
     high, medium and low) according to priority.

           In anticipation of the OIG annual brainstorming sessions, the OIG sends an
     e-mail to all FEC staff seeking input in formulating the OIG’s work plans.
     Historically, the OIG receives useful audit suggestions from FEC staff which are
     then considered during the annual planning process.

            The OIG planning process is designed to yield work assignments that will
     identify opportunities for economy, efficiency and effectiveness in FEC programs
     and operations; and detect and prevent fraud, waste, abuse and mismanagement.
     The priority for conducting work assignments is based on (1) mandatory legislative
     requirements; (2) emphasis by the President, Congress, and the Commission; (3) a
     program’s susceptibility to fraud, manipulation, or other irregularities; (4) dollar
     magnitude or resources involved in the proposed area; (5) management needs
     identified through consultation with primary organization heads; (6) newness,
     changed conditions, or sensitivity of an organization; (7) the extent of outstanding
     issues resulting from prior audit coverage or review by OIG; and (8) the adequacy of
     internal control systems in place for the program or other factors.




26
April 1, 2009 - September 30, 2009




               Based on the results of the OIG’s planning process, the OIG’s annual work
        plan is divided into three primary categories:

            (1) Audits/Inspections/Reviews;
            (2) Investigative Program; and
            (3) Special Projects.


        OIG 2010 Work Plan
        AUDITS/INSPECTIONS/REVIEWS

               The term “audit” is used to describe work performed by auditors in examining
        financial statements, as well as work performed in reviewing compliance with
        applicable laws and regulations, the economy and efficiency of operations, and the
        effectiveness in achieving program results. These audits are prepared in accordance
        with generally accepted government auditing standards and vary in scope and
        complexity. Inspections and reviews are conducted in accordance with quality
        standards issued by the federal Inspector General community.

        For Fiscal Year 2010, the following audit related assignments are planned:


            1. Audit of the Federal Election Commission’s 2009 and 2010 Financial
               Statements.

                In accordance with the Accountability of Tax Dollars Act of 2002, the FEC is
                required to prepare annual financial statements in accordance with Office of
                Management and Budget (OMB) Circular No. A-136, Financial Reporting
                Requirements. The Chief Financial Officers Act of 1990, as amended,
                requires the FEC Inspector General, or an independent external auditor
                selected by the IG, to audit the agency financial statements.

                We will oversee the audit conducted by the OIG’s independent public
                accounting firm Leon Snead & Company. The OIG is responsible for 1)
                reviewing the auditor’s approach and planning of the audit; 2) evaluating the
                qualifications and independence of the auditors; 3) monitoring the work of
                the auditors; 4) examining audit documents and reports to ensure compliance
                with Government Auditing Standards, and OMB Bulletin No. 07-04, Audit
                Requirements for Federal Financial Statements, as revised; and 5) other
                procedures the OIG deems necessary to oversee the contract and audit.

                Planned period of audit: May 2009 – November 2009;
                                         May 2010 – November 2010.




                                                                                                27
                                              Oﬃce of Inspector General Semiannual Report to Congress




     2. Audit of the Federal Election Commission’s Property Management
        Controls.

       We will conduct an audit of the controls over FEC property, to include
       Blackberry/cellular telephones, FEC vehicles and fleet/fuel charge cards. The
       scope of this audit will include a review of Commission internal controls over
       FEC property from fiscal year (FY) 2007 to present. The audit will assess the
       adequacy of: (1) policies and procedures for managing the assets; (2) business
       processes used to manage the assets; and (3) management control activities
       used to detect and correct potential fraud, waste and abuse of the assets. The
       OIG will also conduct detailed testing of asset use to determine whether
       employees complied with FEC policies and procedures.

       Planned period of audit: September – November 2009.
     3. Audit Follow-up of the OIG’s 2007 Performance Audit of Privacy and
        Data Protection.

       We will conduct an audit follow-up of the 2007 audit of privacy and data
       protection, an audit conducted by an independent public accounting firm on
       behalf of the OIG.

       In 2007, the OIG contracted with Cotton & Company, LLP to conduct a
       performance audit of privacy and data protection policies and procedures and,
       specifically, to determine whether the FEC is adequately protecting
       personally identifiable information (PII). The auditors reported seven
       separate findings and provided thirteen recommendations for improving
       privacy practices at the FEC. The purpose of the audit follow-up will be to
       determine whether FEC management has taken adequate steps to implement
       agreed upon actions on OIG recommendations contained in the 2007 audit
       report.

       Planned period of audit: Early 2010.

     4. Audit Peer Review.

       The OIG will conduct an audit peer review of the Commodity Futures
       Trading Commission OIG as part of the Council of Inspectors General on
       Integrity and Efficiency’s audit peer review program. Government Auditing
       Standards require audit organizations to have an external review of their
       quality control system at least every three years. The FEC OIG is scheduled
       to be peer reviewed in FY 2011.

       Planned period of review: May – June 2010.




28
April 1, 2009 - September 30, 2009




            5. Audit Policies and Procedures Manual.

                The OIG’s current audit policies and procedures manual will be updated and
                finalized during the fiscal year to reflect changes in auditing standards and
                changes in the OIG’s audit environment, to include the use of electronic
                working papers.

            6. Additional Work Assignments. The following additional assignments
               may be undertaken during fiscal year 2010 based on available OIG
               resources, timing of management’s implementation of audit
               recommendations, benefit to the agency and other relevant factors.
               Priorities may be adjusted to reflect emerging issues during the
               fiscal year.

                a. Inspection of the FEC’s Employee/Contractor Background Investigation
                   Program.
                b. Audit Follow-up of the OIG’s Transit Benefit Program Audit.
                c. Audit Follow-up of the OIG’s 2009 Procurement and Contract
                   Management Audit.
                d. Inspection of the FEC’s Occupant Emergency Program.
                e. Audit of the FEC’s Physical Security / Protection of FEC Records.
                f. Audit of the FEC’s Training Program.
                g. Audit of the FEC’s Debt Collection / Civil Penalties Program.




                                                                                                29
                                                   Oﬃce of Inspector General Semiannual Report to Congress




     INVESTIGATIVE PROGRAM

            The OIG’s investigative program is intended to add value to the agency’s
     programs and operations by identifying and investigating allegations of fraud,
     waste, abuse and misconduct leading to criminal, civil, and administrative penalties
     and recoveries. Investigations typically originate as hotline complaints and may
     result in formal investigations if the OIG believes an investigation is warranted.
     The OIG’s investigative program also provides for initiatives designed to monitor
     specific high-risk areas within FEC programs and operations in order to proactively
     identify vulnerabilities in order to prevent fraud, waste and abuse.

     For Fiscal Year 2010, the following investigative assignments are planned:


        1. Manage Hotline Complaints and Investigation Caseload.

           We will respond to hotline complaints during the fiscal year and report in a
           timely manner to the appropriate officials on the resolution of hotline
           complaints and investigations.

        2. Outsource OIG Hotline.

           During the fiscal year, the OIG is planning to contract with a vendor to provide
           a hotline service. Hotline complaints and investigations will continue to be
           handled by OIG staff, however, the outsourced OIG hotline will provide FEC
           employees, contractors and interested parties with an additional mechanism to
           submit complaints of fraud, waste, abuse and misconduct to the OIG.

        3. Investigations Manual.

           The OIG plans to update and finalize the OIG’s investigations manual during
           the fiscal year.

        4. Proactive Investigative Initiatives.

           The OIG will initiate proactive reviews involving high-dollar and high-risk
           programs and operations of the agency. In addition, the OIG has identified
           several agency data systems, such as financial related systems, and plans to
           pursue direct read-access for OIG personnel as part of the OIG’s proactive
           initiatives to prevent fraud, waste, abuse and misconduct.




30
April 1, 2009 - September 30, 2009




            5. Outreach.

                During the fiscal year, the OIG will conduct fraud awareness and OIG
                briefings with division management and staff. The fraud briefings are
                intended to educate FEC staff about the potential for fraud in FEC programs,
                such as travel, workers’ compensation, time and attendance, and government
                charge card activity. Discussion and education on fraud will help employees
                to identify and report suspected fraud and help reduce the number of fraud
                cases. In addition, the OIG will continue the new employee orientation
                program to meet with all new employees to discuss the purpose and mission
                of the OIG. Lastly, the OIG will review and revise, as necessary, the OIG’s
                FECNet (intranet) site, public Web site, OIG brochure, fraud poster, and
                other outreach initiatives.


        SPECIAL PROJECTS
                In addition to the OIG’s audit and investigative responsibilities, the OIG will
        be responsible for numerous additional projects and activities during fiscal year
        2010. For example, as required by the Inspector General Act of 1978, as amended,
        all legislation compiled by the Commission’s Congressional Affairs Office is
        reviewed by the Inspector General. The Inspector General and staff also participate
        in several federal Inspectors General community working groups on topics related
        to law, audits, and investigations. All of these activities contribute to the success
        and mission of the OIG. Additional special projects will arise throughout the fiscal
        year and the OIG will prioritize our workload to respond to the additional
        requirements.

        For Fiscal Year 2010, the following special projects and activities are planned:


            1. Participate and Attend Professional Working Group and Other
               Meetings.

                The Inspector General or OIG staff will regularly attend the following
                Council of the Inspectors General on Integrity and Efficiency (CIGIE)
                professional working group meetings: CIGIE; Executive Council of CIGIE;
                CIGIE Professional Development Committee; IG Candidate
                Recommendations Panel Committee; IG Council of Counsels; Assistant
                Inspector General for Investigations; Federal Audit Executive Council; and
                Financial Statement Audit Network Group.




                                                                                                  31
                                              Oﬃce of Inspector General Semiannual Report to Congress




       In addition to CIGIE professional working group meetings, the Inspector
       General or staff will regularly attend FEC weekly senior level meetings, and
       quarterly management and FEC town-hall meetings during the fiscal year.

     2. Semiannual and Quarterly Reporting.

       In accordance with the Inspector General Act of 1978, as amended, the OIG
       will prepare and transmit to the Congress semiannual reports on the
       activities of the OIG. Semiannual reports summarize OIG activities during
       the immediately preceding six-month periods ending March 31st and
       September 30th of each year. OIG semiannual reports are also provided to
       the Commission. The OIG will also report on a quarterly basis to the
       Commission on the activities of the office.

     3. Professional Development and Training.

       The goal of the OIG’s training program is to provide cost effective training to
       increase professional knowledge and proficiency, and ensure staff meet
       continuing professional educational requirements. As a result, the OIG staff
       will attend professional training and conferences during the fiscal year to
       maintain and improve their knowledge, skills and abilities.

     4. Audit Follow-up Tracking Database.

       The OIG will complete and implement the OIG’s new audit follow-up tracking
       database during fiscal year 2010. In partnership with the FEC’s Information
       Technology Division, the OIG is developing the database to assist the FEC to
       adhere to the requirements of the Office of Management and Budget’s
       Circular A-50, Audit Followup, September 29, 1982. The audit follow-up
       database will be an important tool for the Commission, management,
       program officials and OIG to monitor and track the status and
       implementation of audit recommendations by the OIG, Government
       Accountability Office, Office of Personnel Management, and other oversight
       bodies.




32
April 1, 2009 - September 30, 2009



        FEC/OIG Strategic Plan - Fiscal Years 2005 – 2010

            OIG Products: To provide products                         OIG Process: To develop and implement
                                                                                                                                       OIG Staff: To maintain a skilled and motivated
            and services that promote positive                        processes, policies, and procedures to ensure
                                                                                                                                       work force in an environment that fosters
            change in FEC policies, programs, and                     the most effective and appropriate use of OIG
                                                                                                                                       accountability, communications, teamwork, and
            operations.                                               resources in support of our people and
                                                                                                                                       personal and professional growth.
                                                                      products.

            Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
            products and services that promote                                                                                         diverse and motivated employees.
            positive change.                                            Objective A: Maintain a dynamic strategic
                                                                        planning process.                                              Strategy:
                                                                                                                                       - develop and implement a comprehensive recruiting program
            Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
            - establish common OIG standards for communicating          Strategy:
                                                                                                                                       abilities, and expertise necessary to make meaningful
            results;                                                    - periodically review and update the strategic plan to
                                                                                                                                       contributions to the OIG;
            - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                                       - assess employee satisfaction and develop strategies to
            - solicit appropriate internal and external review and      - identify factors that influence organizational change
                                                                                                                                       address employee concerns;
            comment;                                                    and develop short and long term plans to address them.
                                                                                                                                       - identify reasons for staff departures and develop plans to
            - comply with applicable statutory guidelines and                                                                          foster greater staff retention; and,
            standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
            - set realistic and appropriate milestones.                                                                                force.

            Objective B: Address priority issues
            and concerns of the Commission,
                                                                        Objective B: Plan and conduct cost-
            Management, and Congress.
                                                                        effective work that address critical issues                    Objective B: Provide training and
            Strategy:     Perform work that supports;                   and results in positive change.                                developmental opportunities to employees.
            - Federal Election Commission and Congressional
            priorities;                                                 Strategy:                                                      Strategy:
            - Strategic Management Initiative efforts;                  - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                        activities;                                                    office needs as well;
            Focus OIG attention in the following areas of               - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
            emphasis:                                                   goals and priorities;                                          training are adhered to; and,
            - managing change;                                          - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
            - resource allocation in relation to policy objectives;     communicated; and,                                             requirements are met.
            - delivery of client service;                               - identify specific targets for OIG review that are the most
            - causes of fraud and inefficiency; and,                    cost-effective
            - automation and communication.



                                                                        Objective C: Identify customer needs and
                                                                        provide products and services to meet
            Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
            results of OIG products and services to                                                                                    when possible, performance that contributes to
            assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
            positive change.                                            - establish new customer feed back mechanisms;
                                                                        - consider and evaluate customers feedback when                Strategy:
                                                                        planning and developing products and services;
            Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                                       - develop and articulate expectations for each employee's
            - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                                        briefing and testimony;
            timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                                        - promote open exchange of ideas and information
            - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                                        through outreach and through use of e-mail; and,
            results have been achieved.                                                                                                exceptional employee performance.
                                                                        - receive, evaluate, and respond, as appropriate, to
                                                                        information received through the OIG hotline and other
                                                                        sources.


            Objective D: Satisfy customers,
            consistent with the independent nature                      Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
            of the OIG.                                                 and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                        procedures.                                                    effective communication.
            Strategy:
            - establish professional communication and                  Strategy:                                                      Strategy:
            interaction with customers to promote the open              - ensure that IG follow-up procedures are followed and
                                                                                                                                       - ensure that communication between employees is open;
            exchange of ideas;                                          that management is aware of their role in the process;
                                                                                                                                       - provide employees with the tools and incentives they need to
            - incorporate customer feedback, as appropriate; and,       - establish common OIG standards for terminology, date
                                                                                                                                       adequately perform their duties.
            - be open to customer-generated solutions and               maintenance and communications.
            options.

                                                                        Objective E: Establish a positive and
                                                                        productive working environment.

                                                                        Strategy:
                                                                        - reengineer or streamline OIG procedures to achieve the
                                                                        most effective use of resources; and,
                                                                        - ensure that necessary technologies, evolving and
                                                                        otherwise, are made available to staff as needed.



            Performance Measures: Determine the
            timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
            services; their effectiveness in                            plan is issued; strategic plan is periodically                 the training requirements; all employees have
            promoting positive change; and, reach                       reviewed; and, necessary technology is                         performance standards; and all employees
            agreement with management on at least                       provided to staff to enable them to most                       meet the basic requirements for the position in
            90% of recommendations within six                           efficiently perform their duties.                              which they were hired to perform.
            months of the report issue date.




                                                                                                                                                                                                        33
                                          CONTACTING THE
                              OFFICE OF INSPECTOR GENERAL


The success of the OIG mission to prevent fraud, waste, and abuse depends on the cooperation of FEC em­
ployees (and the public). There are several ways to report questionable activity.




                       Call us at 202-694-1015 (A confidential or anonymous message can be left 24
                       hours a day) or toll-free 1-800-424-9530 (press 0; then dial 1015
                       Mon–Fri 8:30 AM – 5:00 PM).


                       Write or visit us - we are located at: Federal Election Commission

                       Office of Inspector General
                       999 E Street, N.W., Suite 940
                       Washington, D.C. 20463

                       Mail is opened by OIG staff members only.




                       You can also fax us at 202-501-8134 or contact us by e-mail at: oig@fec.gov.




                       Website address: http://www.fec.gov/fecig/fecig.shtml





Individuals may be subject to disciplinary or criminal action for knowingly making a false complaint or provid­
ing false information.
